<html>
<title> - AFGHANISTAN AND PAKISTAN: RESOURCING THE CIVILIAN SURGE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        AFGHANISTAN AND PAKISTAN: RESOURCING THE CIVILIAN SURGE 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________

                           Serial No. 111-56

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-383 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     Andrew Wright, Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2010.....................................     1
Statement of:
    Jones, Paul, Deputy Assistant Secretary, South and Central 
      ASIA Bureau, U.S. Department of State; David S. Sedney, 
      Deputy Assistant Secretary of Defense for Central Asian 
      Affairs, and formerly Deputy Chief of Mission, U.S. 
      Embassy, Beijing (2004-2007) and Kabul (2003-2004); James 
      A. Bever, Deputy Assistant Administrator, ASIA and Near 
      East Bureau, U.S. Agency for International Development, 
      former Mission Director to West Bank/Gaza (2004-2006) and 
      Afghanistan (2003-2004); Michael Michener, Administrator, 
      Foreign Agricultural Service, U.S. Department of 
      Agriculture, former State Department Democracy and 
      Governance Advisor, Iraqi Policy Officer and Human Rights 
      Advisor; and Ambassador John Herbst, Coordinator, Office of 
      Reconstruction and Stabilization (S/CRS), U.S. Department 
      of State, former Ambassador to Uzbekistan (2000-2003) and 
      Ukraine (2003-2006)........................................    30
        Bever, James A...........................................    43
        Herbst, John.............................................    57
        Jones, Paul..............................................    30
        Michener, Michael........................................    51
        Sedney, David S..........................................    39
Letters, statements, etc., submitted for the record by:
    Bever, James A., Deputy Assistant Administrator, ASIA and 
      Near East Bureau, U.S. Agency for International 
      Development, former Mission Director to West Bank/Gaza 
      (2004-2006) and Afghanistan (2003-2004), prepared statement 
      of.........................................................    45
    Herbst, Ambassador John, Coordinator, Office of 
      Reconstruction and Stabilization (S/CRS), U.S. Department 
      of State, former Ambassador to Uzbekistan (2000-2003) and 
      Ukraine (2003-2006), prepared statement of.................    60
    Jones, Paul, Deputy Assistant Secretary, South and Central 
      ASIA Bureau, U.S. Department of State, prepared statement 
      of.........................................................    33
    Michener, Michael, Administrator, Foreign Agricultural 
      Service, U.S. Department of Agriculture, former State 
      Department Democracy and Governance Advisor, Iraqi Policy 
      Officer and Human Rights Advisor, prepared statement of....    53
    Sedney, David S., Deputy Assistant Secretary of Defense for 
      Central Asian Affairs, and formerly Deputy Chief of 
      Mission, U.S. Embassy, Beijing (2004-2007) and Kabul (2003-
      2004), prepared statement of...............................    41
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of Mr. Cronin...     2


        AFGHANISTAN AND PAKISTAN: RESOURCING THE CIVILIAN SURGE

                              ----------                              


                         TUESDAY, MAY 19, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Maloney, Van Hollen, 
Welch, Foster, Quigley, Flake, Duncan, and Jordan.
    Staff present: Catherine Ribeiro, communications director; 
Mariana Osorio, legislative director; Ken Cummings and Aaron 
Wasserman, legislative assistants; Anne Bodine, Brendan Culley, 
Steven Gale, fellows; Andy Wright, staff director; Elliot 
Gillerman, clerk; Dan Blankenburg, minority director of 
outreach and senior advisor; Adam Fromm, minority chief clerk 
and Member liaison; Dan Blankenburg, minority director of 
outreach and senior advisor; Tom Alexander, minority senior 
counsel; and Glenn Sanders, minority Defense fellow.
    Mr. Tierney. Good morning. A quorum being present, the 
Subcommittee on National Security and Foreign Affairs' hearing 
entitled, ``Afghanistan and Pakistan: Resourcing the Civilian 
Surge,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements.
    Without objection, so ordered.
    I ask unanimous consent that formal written testimony from 
Dr. Patrick Cronin of National Defense University be accepted 
for the record.
    Without objection, so ordered.
    [The prepared statement of Mr. Cronin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. And I ask unanimous consent that the hearing 
record be kept open for 5 business days so that all members of 
the subcommittee will be allowed to submit a written statement 
for the record.
    Without objection, so ordered.
    I want to thank all of our panel for being here with us 
this morning. Today, the Subcommittee on National Security and 
Foreign Affairs will explore the civilian surge component of 
the President's new strategy for Afghanistan and Pakistan.
    The President has said that a campaign against extremism 
will not succeed with bullets and bombs alone. As such, a 
critical part of the administration's new strategy for the 
region is to significantly increase civilian staffing.
    The plan to surge upwards of 500 civilians over a short 
time horizon into the Afghanistan and Pakistan centers enters 
unchartered waters for civilian agencies such as the U.S. 
Department of Agriculture, the State Department, and the U.S. 
Agency for International Development.
    The last time economists, city managers, agronomists, law 
advisers, and accountants were recruited and deployed en mass 
to a combat theater goes back at least four decades, in the 
U.S. support for pacification programs during the Vietnam War 
era.
    This hearing examines what we have learned from more recent 
civilian deployments in post-conflict states like Iraq and 
failed states like Sudan. We have gathered this experienced 
panel of administration officials to share with us their plans 
to recruit, train, and deploy this new cadre of civilians. We 
are counting on them to ensure that the best-trained staff will 
be deployed to today's most challenging foreign theater, 
Afghanistan and Pakistan.
    As a subcommittee with interagency jurisdiction, we are 
especially interested in the extent of collaborative planning 
among the civilian agencies to support a whole-of-government 
approach to reconstruction and development. The subcommittee is 
also keenly interested in how the civilian agencies are 
coordinating with the Department of Defense on predeployment 
training so we are using existing resources and not reinventing 
courses, curricula, and other educational materials for our 
civilian surge recruits.
    Some observers of recruitment programs have said that 
finding additional qualified civilians has been hampered by the 
ongoing heavy demand in Iraq for civilian and military 
construction experts. In their view, those not working in Iraq 
are already in Afghanistan. As such, there a risk that new 
applicants responding to today's personnel recruitment ads will 
not have the requisite skills and/or the overseas experience to 
hit the ground running. If this is accurate, civilians 
recruited for the surge will need considerable training and 
country familiarization before deploying if they are to be 
effective upon arrival. A scarcity of qualified civilians has 
led to numerous media reports suggesting that the Department of 
Defense, rather than the civilian agencies, is likely to fill 
most of the billets.
    Another issue that surge civilians will face in country is 
how well they are integrated within and coordinated with the 
military. Many surge recruits will likely be assigned to 
provincial reconstruction teams led by military officers. The 
PRTs will likely have a total of three or four diplomacy, 
reconstruction, and aid development subject matter experts from 
USAID, the Department of State, the Department of Agriculture, 
and the Department of Justice.
    The surge civilians working for ministries in Kabul or the 
provinces will also need to coordinate with the military to 
avoid duplication of effort and to strengthen local 
capabilities.
    While the military has worked hard to establish and 
implement a unified military command, it seems desirable to 
have an analogous, unified civilian command; and, ultimately, 
both commands will need to be fully integrated to achieve long-
lasting positive results.
    Frankly, the call for a civilian surge in Afghanistan is 
not new. In late 2008, predating the new Afghanistan- Pakistan 
strategy, the U.S. Embassy in Kabul requested a major increase 
in government civilians in such areas as governance, rule of 
law, development, and diplomacy to be deployed in provincial 
and district levels. Regrettably, we are told that this request 
was not fulfilled.
    The State Department's Office of the Coordinator for 
Reconstruction and Stabilization created in 2004 was chartered 
to lead U.S. efforts to respond to crisis in failing, failed, 
and post-conflict situations like the present one in 
Afghanistan. It is not clear to me what role SCRS can or will 
play in Afghanistan and Pakistan in this critical moment. We 
hope to have that addressed this morning.
    I am pleased to have with us today administrative officials 
from the State Department, USAID, USDA, and the Department of 
Defense. We want to know how you are planning to staff the 
Afghanistan-Pakistan civilian surge in regard to recruitment, 
training, deployment, and retention. We want to know what 
lessons you have learned in Iraq and elsewhere in terms of 
utilizing civilians in complex operations.
    Additionally, the subcommittee would like to hear how to 
best expand and institutionalize a ready-to-deploy civilian 
work force that keeps in step with increasing security 
challenges for weak and failed states. I look forward to 
hearing how each of your agencies intends to translate the 
President's strategy into operational reality.
    With that, I defer to Mr. Flake for his opening comments.
    Mr. Flake. Thank you, Mr. Chairman.
    I don't have much to add. I think the chairman said it very 
well.
    We are looking to see some detail and to see how you plan 
to implement it. I think all of us recognize the need for this 
kind of civilian surge. It is just we don't have many details 
about how it is going to be carried out and, obviously, as the 
chairman mentioned, to see what lessons have been learned in 
Iraq and already in Afghanistan.
    I think those of us who have traveled to Afghanistan have 
seen the need for better coordination with the military 
counterparts and the civilians that are there, and I am anxious 
to here how you plan to do that.
    With that, thank you all. I look forward to the testimony.
    Mr. Tierney. Thank you, Mr. Flake.
    The subcommittee will now receive testimony from the 
witnesses before us today. Let me introduce them briefly, if I 
might.
    Mr. Paul W. Jones currently serves as the Deputy Special 
Representative for Afghanistan and Pakistan. A member of the 
Senior Foreign Service, Mr. Jones previously served as Deputy 
Chief of Mission at the U.S. Embassies in the Philippines and 
in Macedonia. Mr. Jones has also served as Director of the 
Executive Secretariat Staff, supporting the Secretary of State, 
and Director of the Office of South Central Europe responsible 
for U.S. policy in the Balkans. Mr. Jones holds a BA from 
Cornell University, an MPA from the University of Virginia, and 
an MA from the Naval War College. Welcome, Mr. Jones.
    Mr. David Sedney currently serves as Deputy Assistant 
Secretary of Defense for Afghanistan, Pakistan, and Central 
Asia. Most recently, Mr. Sedney was Deputy Assistant Secretary 
of Defense for East Asia and prior to that served as Deputy 
Chief of Mission to the U.S. Embassy in Beijing. After 
reopening the U.S. Embassy in Kabul in 2002, Mr. Sedney served 
there as Deputy Chief of Mission, a post that he again served 
in from 2003 to 2004. He later served as Director for 
Afghanistan at the National Security Council. Mr. Sedney holds 
a BA from Princeton University and a JD from Suffolk University 
Law School, a good school, I might add.
    Mr. James Bever currently serves as Director of the 
Afghanistan-Pakistan Task Force at the U.S. Agency for 
International Development where he oversees more than $4 
billion in U.S. assistance to Afghanistan and Pakistan. A 
member of the Senior Foreign Service, Mr. Bever previously 
served as Senior Deputy Assistant Administrator for the Middle 
East, providing leadership for $2.5 billion in U.S. assistance 
to the Middle East and North Africa. Mr. Bever holds a BA from 
Cornell University and an MS from Georgetown University.
    Mr. Michael Michener currently serves as the Administrator 
for the Foreign Agricultural Service at the U.S. Department of 
Agriculture. Prior to that, he served as a Senior Democracy and 
Governance Adviser and lead Planning Officer for the State 
Department's Office of the Coordinator for Reconstruction and 
Stabilization. Mr. Michener also previously worked for the 
State Department as the lead Iraq Policy Officer for Democracy 
and Human Rights Assistance Programs. Mr. Michener holds a BA 
from the University of Maryland.
    Ambassador John E. Herbst currently serves as the 
Coordinator for Reconstruction and Stabilization at the U.S. 
Department of State. A member of the Senior Foreign Service, 
Ambassador Herbst previously served as U.S. Ambassador to 
Ukraine and Uzbekistan and has held other postings in 
Jerusalem, Moscow and Riyadh. Ambassador Herbst holds a BS from 
Georgetown University, a Master of Law and Diplomacy from the 
Fletcher School of Tufts University.
    I want to thank all of you for making yourselves available 
today. It is the practice of this subcommittee to have members 
of a panel sworn in before you testify. I ask you to please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. You may be seated. The record will reflect 
that all the members of the panel answered in the affirmative.
    Your written comments, which you were kind enough to submit 
in advance to the panel, will already be on record and accepted 
as that. We ask you to please give us a statement of 5 minutes 
or less, if you can, and from that we will ask some questions 
and proceed accordingly.
    Mr. Jones, if you would be kind enough to begin.

STATEMENTS OF PAUL JONES, DEPUTY ASSISTANT SECRETARY, SOUTH AND 
CENTRAL ASIA BUREAU, U.S. DEPARTMENT OF STATE; DAVID S. SEDNEY, 
    DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR CENTRAL ASIAN 
 AFFAIRS, AND FORMERLY DEPUTY CHIEF OF MISSION, U.S. EMBASSY, 
  BEIJING (2004-2007) AND KABUL (2003-2004); JAMES A. BEVER, 
DEPUTY ASSISTANT ADMINISTRATOR, ASIA AND NEAR EAST BUREAU, U.S. 
 AGENCY FOR INTERNATIONAL DEVELOPMENT, FORMER MISSION DIRECTOR 
  TO WEST BANK/GAZA (2004-2006) AND AFGHANISTAN (2003-2004); 
MICHAEL MICHENER, ADMINISTRATOR, FOREIGN AGRICULTURAL SERVICE, 
    U.S. DEPARTMENT OF AGRICULTURE, FORMER STATE DEPARTMENT 
  DEMOCRACY AND GOVERNANCE ADVISOR, IRAQI POLICY OFFICER AND 
HUMAN RIGHTS ADVISOR; AND AMBASSADOR JOHN HERBST, COORDINATOR, 
   OFFICE OF RECONSTRUCTION AND STABILIZATION (S/CRS), U.S. 
  DEPARTMENT OF STATE, FORMER AMBASSADOR TO UZBEKISTAN (2000-
                 2003) AND UKRAINE (2003-2006)

                    STATEMENT OF PAUL JONES

    Mr. Jones. Thank you so much, Chairman Tierney and Ranking 
Member Flake, distinguished members of the subcommittee, for 
inviting me here today. It is a real privilege to appear before 
you.
    Ambassador Holbrooke and his interagency team are committed 
to working closely with Congress as we implement a new strategy 
for Afghanistan and Pakistan, and we appreciate the deep 
interest and knowledge among the members of this subcommittee. 
Congressional support for the President's strategy and the 
resources needed to implement it are critical to our success, 
and we look forward to continuing this fruitful dialog.
    I am here today to discuss the significant civilian 
increase, particularly for Afghanistan, that the President 
announced in late March. At that time he noted that, ``to 
advance security, opportunity, and justice--not just in Kabul, 
but from the bottom up in the provinces--we need agricultural 
specialists, educators, engineers, and lawyers.''
    We are working with 10 other U.S. departments and agencies 
to identify and deploy civilian personnel to work alongside not 
only U.S. military personnel but also our Afghan and 
international partners. This civilian increase is one of 
several significant elements of the administration's new 
strategy, and it underscores our conviction that achieving 
counterinsurgency objectives in Afghanistan and Pakistan will 
require enhanced civilian-military coordination at all levels.
    You have the details of the plan in my written statement, 
but let me highlight just a couple of key components.
    U.S. civilians will help build Afghan government capacity 
in the most dangerous, insurgent-afflicted parts of the country 
and will also expand programs to create jobs and build local 
economies. The U.S. Embassy and U.S. forces Afghanistan, in 
coordination with the International Security Assistance Force, 
ISAF, determined that approximately 420 more U.S. civilian 
specialists were needed in specific locations between July 
2009, and March 2010, to work closely with our military to 
focus on the hold-and-build phases in contested parts of the 
country.
    The new personnel also have a multiplier effect as they 
hire additional Afghan staff and expand NGO partnerships. A 
joint U.S. Embassy-U.S. forces Afghanistan team is constantly 
reevaluating the civilian increase; and if more civilian 
capacity is required, we will provide it.
    We adopted a whole-of-government approach to meet the 
civilian requirements. Experts from the Department of State, 
USAID, and the Department of Agriculture constitute the core of 
the civilian teams that will deploy outside Kabul to the 
provinces and districts with our military. Personnel from the 
State Department's Office of Reconstruction and Stabilization 
are helping to integrate civilian and military activities, and 
we expect they will also fill some civilian increase priorities 
in the field.
    Despite the risks of deploying to an active conflict zone, 
I am pleased to report that there has been a tremendous 
response to the call to duty. As a result, we are on track and 
on schedule to staff the entire civilian increase with highly 
qualified State, USAID, and USDA permanent and temporary hire 
personnel in the field. A new service recognition package will 
provide those serving in Afghanistan with the same benefits as 
those serving in Iraq.
    Many applicants have prior experience in Afghanistan or 
Iraq and are eager once again to serve on the front lines. If 
staffing gaps develop, we will immediately turn to other hiring 
streams, including the Department of Defense's Civilian 
Expeditionary Workforce, and, if needed, examine the 
possibility of utilizing military reservists in civilian attire 
and under chief of mission authority.
    To ensure the civilians are fully prepared, we are 
upgrading an integrated civilian-military training program that 
all civilians will attend. To ensure that civilians are well 
led and coordinated, we are upgrading our leadership at Embassy 
Kabul and in the field. Four U.S. Ambassadors will lead 
civilian efforts at our Embassy in Kabul and coordinate 
directly with our military.
    To illustrate how the civilian increase will work, let me 
give as an example just one Afghan province. In Helmand 
Province in the south, where significant new U.S. military 
personnel will deploy, we currently have one State Department 
representative, one USAID development expert, and three Afghan 
staff on the British-led provisional reconstruction team 
located in the capital.
    The civilian increase will add 11 additional State 
Department representatives, four USAID development experts, one 
USDA agricultural specialist, and six Afghan staff. They will 
work with the new military units to establish three new 
district support teams.
    At the same time, USAID's implementing partner staff will 
increase from approximately 30 to 35 international personnel 
and from approximately 400 to 450 Afghan specialists working 
for NGO's which are funded by U.S. Government development 
projects.
    This influx of additional United States and Afghan civilian 
personnel will add significantly to our ability to build local 
Afghan government capacity and oversee assistance projects 
while teaming up with military colleagues to stabilize this 
conflicted province.
    We know from experience in Afghanistan and Iraq that lack 
of security can inhibit civilian effectiveness by limiting the 
ability of civilians to travel outside of military bases. We 
very much welcome General Petraeus' strong commitment to ensure 
maximum freedom of movement for civilians, and we will work 
closely with his team to make that operational.
    Civilian field presence is, of course, not simply a U.S. 
job. Our coalition partners are playing an important role. 
Some, like Canada and the United Kingdom, have had significant 
civilian field presence in southern Afghanistan for some time. 
We encourage our partners to augment their civilian field 
footprint and are actively coordinating in Kabul with the help 
of the United Nations.
    Significantly, I might add that subject was explored among 
the special representatives that just met in Istanbul. 
Ambassador Holbrooke and his colleagues were talking about the 
very subject yesterday.
    Significantly, the Afghan government recently presented a 
plan for some 650 international and Afghan technical experts. 
We are discussing actively with the Afghans and our partners 
how much of that need is being met by planned civilian 
increases and what more may need to be done.
    Finally, I would like to cite the important work of the 
Special Inspector for Afghanistan Reconstruction [SIGAR]. 
Ambassador Holbrooke and his team strongly support the role of 
General Fields in closely monitoring the disbursement of 
assistance. The Afghan government has specifically asked SIGAR 
to advance its own anti-corruption efforts.
    SIGAR is Congress' representative on the ground, and we 
would like to see them deployed in every province. We value 
SIGAR and respect their independence. To the extent that 
Congress is willing to expand its mandate and responsibilities, 
Ambassador Holbrooke has made clear we would very strongly 
support that.
    Thank you again for this opportunity to appear before you 
today. I look forward to your questions.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Mr. Jones. We appreciate your 
testimony.
    Mr. Sedney.

                  STATEMENT OF DAVID S. SEDNEY

    Mr. Sedney. Mr. Chairman, thank you and the members of the 
committee for this opportunity to testify. I can confirm that 
this is the first time that I have appeared before Congress to 
a fellow Suffolk University alumni.
    The appearance here with my interagency colleagues is, I 
think, a very accurate reflection of exactly what my colleague 
Mr. Jones said about the interagency approach here. The 
Department of Defense in this civilian effort is playing very 
much a supporting role.
    As you know, the strategic review that the President 
ordered and that the administration carried out came to the 
conclusion--after extensive consultation, I might stress, with 
our allies and friends and looking at the experiences not just 
in Afghanistan but also in Iraq--of the importance of a need 
for expanded civilian presence.
    We are currently implementing, as Mr. Jones said, a request 
for over 400. General Petraeus has made very clear he has 
pledged that we will--the Department of Defense, CENTCOM, the 
U.S. forces on the ground--provide the necessary support for 
additional civilians, to include the security issue that Mr. 
Jones mentioned as well as other areas of support that are 
necessary. If there are additional personnel beyond the current 
request, we will be prepared to support those as well.
    And it hasn't happened yet, but if the State Department 
were to ask us for additional help, as Mr. Jones said, the 
Department is prepared to respond. That request hasn't happened 
yet, but if it does happen, we are prepared to respond.
    On May 11th, Secretary Gates signed a memorandum directing 
the Undersecretary of Defense for Personnel Readiness to 
identify civilian employees capable of deploying in Afghanistan 
in support of U.S. Government initiatives. This initiative is 
to identify potential candidates if a request is made.
    But I want to again say we are supporting the State 
Department, as the Defense Department is not in the lead. There 
is no plan for the Department of Defense to take over this 
activity. We are in support of the Department of State.
    The planning to integrate the civilian-military effort that 
you mentioned in your statement, Mr. Chairman, is very much 
under way. The Integrated Civilian-Military Action Group at the 
Embassy and the interagency team, which includes the U.S. 
Forces Afghanistan as an integral part, is coordinating our 
lines of effort in this area.
    We are, of course, continually reviewing how to do this 
better, how to make sure that we are able to carry out the 
requirements of the President's policy. We will not get 
everything right at the beginning, I am sure. We will have to 
review how things are going, and if there are areas where we 
need to make improvements, we will. But I will say, given the 
level of interagency cooperation here, the level of interagency 
attention to this, I am very optimistic that we will be able to 
succeed.
    With that, Mr. Chairman, I am ready for any questions you 
may have later.
    [The prepared statement of Mr. Sedney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you very much for your testimony.
    Mr. Bever.

                  STATEMENT OF JAMES A. BEVER

    Mr. Bever. Thank you very much, Chairman Tierney and 
Ranking Member Flake and other members of the committee.
    I would like to start, if I could, with a short little 
story of the time when David Sedney and I served together in 
Afghanistan 5 to 6 years ago. We had the task of rebuilding the 
Kabul-Kandahar highway through an extremely dangerous part of 
Afghanistan at the time. This was in Zabul Province in the 
southeast.
    We were invited to lunch with the Governor at the time in 
Zabul Province. He was later assassinated, sadly. But at the 
end of this lunch, which was with tribal leaders, as I was 
leaving with my convoy, one of the large Pashtun tribal leaders 
came up to me and pulled my arm and reached out and pointed to 
my watch and said, remember one thing. You Americans have all 
the watches. Taliban have all the time.
    That made a very lasting impression on me. It was in fact 
an epiphany in my own career. Because I was eligible to retire 
at that time; and I thought, no, this struggle is too important 
for all of us. This is a long struggle and one that requires 
input on the development side as well to help evolve people's 
minds and attitudes.
    As a result, here we are a number of years later. USAID 
still takes Afghanistan and Pakistan extremely seriously. We 
take the staffing up of our involvement very seriously. We have 
cooperated very actively with the members here at this table, 
interagency, and at the National Security Council. We look 
forward to a new partnership with Michael Michener and the 
Foreign Agriculture Service at the U.S. Department of 
Agriculture, and we have formed a whole-of-agency task force at 
USAID since Thanksgiving to oversee a combined Afghanistan-
Pakistan effort within AID. We meet at the assistant 
administrator level every week with our acting administrator to 
review staffing progress, the progress on buildings, security, 
and everything else we need.
    Second, continued needs. We have the continued need for 
support for incentives to allow our people to be the most 
effective on the ground and to stay even longer at post, 
because, as you know, most assignments are 1 year in duration.
    We need secure and timely mobility on the ground and in the 
air in Afghanistan, especially in cooperation with our PRTs, 
our military, and State colleagues.
    We need the closest of coordination with U.S. military, 
NATO, ISAF military, and with State Department. We have that, 
and we are continuing to work on that through coordination 
mechanisms which we can talk about later. That goes all the way 
from training to implementation and planning.
    We need closer cooperation with our fellow donors, not just 
UNAMA but especially, I think, the bilateral donors such as the 
Dutch, the British, and the Canadians that operate in the south 
in Helmand, in Oruzgan, and in Kahdahar Provinces. And, we have 
begun in earnest discussions with them about how to coordinate 
better at all levels of our organizations in all these 
countries.
    We need more resourceful monitoring mechanisms on the 
ground, creative, flexible, and trustworthy; not only foreign 
service nationals but also other additional third-party 
mechanisms and technologically creative mechanisms to oversee 
what we are doing.
    On oversight, we value, as Paul Jones just said, having the 
continued partnership of the Inspector General for USAID, the 
Government Accountability Office, and the Special Inspector 
General for Afghan Reconstruction, General Fields, in 
Afghanistan, in particular in the latter case. What we do urge 
is that all of them work in close synchrony and harmony in 
sequencing the time of their audit and their investigation work 
to get the job done to protect our people's money. We can't be 
at all places at all times, and our inspectors general and 
others are very good at assisting us in this, but we have to be 
careful that our already strained staff are not overwhelmed as 
a result.
    In that regard, I would like to just say that we have 
worked very closely with Stuart Bowen and the Special Inspector 
General for Iraq Reconstruction. We have invited Stuart Bowen, 
Ginger, his deputy, General Fields, the Government 
Accountability Office, our IG, and others to meet with our task 
force at USAID. They have done that together. They have done it 
individually.
    We have required reading of this book to everyone we are 
sending out to Afghanistan and Pakistan. One of the lessons in 
here, for example, has to do with lessons learned from Iraq--
Hard Lessons: The Iraq Reconstruction Experience--is the 
importance of listening at the local level and developing from 
the bottom up. That is the new approach for us in Afghanistan.
    I will close by saying two things. One is, we appreciate 
Congress' continuing support for USAID's development leadership 
initiative. This is our initiative to double the number of 
USAID Foreign Service Officers over the next couple of years, 
so that when David Sedney and I sit down again together 5 or 6 
years from now, we will have more USAID officers available to 
serve in these kinds of places, whatever situation we are in 5 
or 6 years from now.
    On that, I would like to introduce three Americans behind 
me who are currently serving or are about to go out to theater.
    One is James Berscheit. If you could stand up, James.
    He is executive officer, currently serving in Kabul. He has 
been there almost a year. He hails from Minnesota.
    The other is Brian Kurtz. If you could stand, Brian.
    Brian is an example of a Foreign Service Officer, recently 
retired, who has agreed to re-up, come back and serve us, 
deploying out to Afghanistan in one of the PRTs. He is 
Chappaqua, NY.
    And Gene Gibson, who is a democracy governance officer 
currently serving in Islamabad for about 7 months, hails from 
Florida.
    We are very proud of these officers.
    Thank you, sir.
    [The prepared statement of Mr. Bever follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. You should be, Mr. Bever.
    I want to thank you for bringing these officers with you 
here today and just to briefly address the three of you.
    We all understand and appreciate your service and how 
critical and important it is, every bit as much as the men and 
women in uniform with armor, with helmets, with guns, with 
things that you don't have. I think the American public 
sometimes doesn't hear about the risks that you take, the 
separation from family and just how involved your commitment 
is.
    So I know I speak for all of my fellow panelists up here. 
We thank you, we pay tribute to what do, and it is greatly 
appreciated. Thank you.
    Mr. Michener.

                 STATEMENT OF MICHAEL MICHENER

    Mr. Michener. Mr. Chairman, members of the committee, I am 
pleased to appear before you today.
    Agriculture plays a critical role in the economy and lives 
of the people of Afghanistan and Pakistan. With the 
agricultural expertise we bring, USDA is committed to 
supporting President Obama's efforts to increase governmental 
effectiveness and enhance economic capacity in Afghanistan and 
Pakistan.
    Agriculture will play a pivotal role in implementing the 
President's counterinsurgency strategy, and USDA is prepared to 
significantly increase the number of highly skilled 
agricultural experts serving on provincial reconstruction teams 
and working at regional and national levels in Afghanistan.
    I recently traveled to Afghanistan and Pakistan at the 
behest of Special Representative Holbrooke to explore 
additional ways USDA can contribute to this effort.
    Since 2003, over 50 USDA volunteers have served in 
Afghanistan. USDA PRT members offer expertise in agricultural 
extension and education, crop production, plant protection, 
animal health and livestock management, agricultural marketing, 
irrigation, and natural resources management. They build the 
capacity of provincial-level host country nationals to enable 
them to manage their own agricultural reconstruction and 
development. Working at the Ministries of Agriculture and 
Education, they strengthen the effectiveness the government.
    I would like to provide two examples of the work carried 
out by USDA experts serving on PRTs in Afghanistan.
    A Farm Service Agency employee from Nevada worked with his 
Afghan counterparts to install six windmill-powered water 
pumps. These pumps revitalized a centuries-old irrigation 
system in the south of Afghanistan that now provides water to 
livestock, vegetable crops, and fruit trees, replacing the 
poppies which thrive in dry rocky soil.
    Another USDA employee from the Natural Resources 
Conservation Service in Maryland worked with his Afghan 
counterparts to rebuild the nation's only functioning soil 
testing laboratory at the Agricultural University at Nangarhar 
Province.
    Our advisers display a great deal of satisfaction in their 
work. Nearly all have helped to recruit other employees to 
serve on PRTs. Over a dozen USDA advisers have volunteered for 
extended or additional tours. There remains a high amount of 
interest and enthusiasm in the Department, as we receive about 
four applications for each vacancy on a PRT.
    The Department stands behind those who volunteer. We 
provide incentives and benefits based on those provided by the 
U.S. Department of State and USAID. PRT advisers undergo 3 
weeks of predeployment training at the U.S. Army's Camp 
Adaberry in Indiana. This training covers medical combat 
lifesaving, force protection, military-civilian coordination, 
mentoring and partnering with the government of Afghanistan and 
general simulation exercises.
    USDA also provides a Washington-based orientation for new 
advisers. Our lessons learned are reflected in standard 
operating procedures and PRT handbooks that employees use 
throughout their service. The new advisers also undergo an 
intensive orientation program upon arrival in Afghanistan. Our 
program managers in Washington are in frequent contact with the 
advisers to help with technical issues, provide support with 
adjustment issues, or just to let them know that their 
sacrifices and hard work are appreciated.
    During service, the USDA advisers receive medical care 
through the State Department medical program or from the 
Department of Defense, depending upon location, timing, and the 
critical nature of the need. We facilitate communication with 
the families of the advisers and provide evacuation in case of 
critical family emergencies.
    A USDA PRT liaison based in U.S. Embassy in Kabul provides 
overall management of the program in country. The liaison works 
closely with counterparts in other civilian and military 
agencies and ensures smooth interagency coordination for 
planning and program operations.
    After serving in PRTs, employees return to their home 
agencies and the position they held prior to their assignments.
    In addition to PRT experts, USDA advisers have provided 
technical assistance to Afghanistan's Ministries of Agriculture 
and Higher Education. Their efforts include providing oversight 
for about $16 million under our Food for Progress program that 
was used to construct provincial agricultural extension offices 
and teaching laboratories in Kabul University.
    During the recent trilateral meetings, USDA made three 
commitments to further support our counterinsurgency efforts in 
Afghanistan and Pakistan. We committed to form working groups 
in the areas of food security, trade corridors, and water 
management and watershed rehabilitation. We also committed to 
increase our Food for Progress programs for both countries. 
Finally, we committed to expand the training under our Cochran 
Fellowship, Borlaug Fellowship and Faculty Exchange Programs.
    USDA is prepared to provide a sustained level of skilled 
and highly motivated experts in PRTs and in government 
ministries in Afghanistan. Congressional support for the 
administration's budget and supplemental appropriations is 
critical to ensure that we can effectively stand up the 
civilian side of the counterinsurgency strategy.
    Thank you for allowing me to testify today. I look forward 
to any questions you may have.
    [The prepared statement of Mr. Michener follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you very much.
    I couldn't help but keep watching you. You looked over at 
that light like you thought the floor was going to go out 
beneath you if it got to red.
    Mr. Michener. This is my first time, Mr. Chairman.
    Mr. Tierney. Thank you.
    You are recognized, sir.

                    STATEMENT OF JOHN HERBST

    Mr. Herbst. Mr. Chairman, Ranking Member Flake, members of 
the subcommittee, thanks for the opportunity to testify.
    In today's tightly interconnected world, there is a growing 
challenge posed by failed or failing states and ungoverned 
spaces. Such areas can become breeding grounds for terrorism, 
weapons proliferation, narco-trafficking, and piracy.
    Afghanistan is the subject at hand, but it is not the only 
country whose instability may affect our national interests. 
The steps to successfully meet this challenge on the civilian 
side are not unlike how the military prepares. We need to build 
the necessary human capacity, we need to develop planning and 
management systems, we need to train our experts and equip them 
with the necessary skills for the situations they will 
encounter, we need to develop teams, and we need to repeatedly 
exercise those teams to make sure they are ready for the 
challenge at hand.
    At the center of this preparation is development of a 
whole-of-government civilian response capability, the Civilian 
Response Corps [CRC].
    As we conceive it, the CRC is to be composed of three 
components: an active component of 250 full-time first 
responders from across eight civilian Federal departments and 
agencies; a standby component of 2,000 across those same eight 
agencies; and a 2,000 member reserve component drawn from the 
private sector, State, and local government.
    To date, $140 million has been appropriated to establish, 
train, and equip a 250-member active component and a 1,000-
member standby component. The first funds, $65 million, came to 
us about 7 months ago. The remaining funds, $75 million, were 
appropriated 2 months ago in the omnibus bill. In the 2010 
budget, President Obama has requested for the civilian 
stabilization issue $323 million to allow all three of the CRC 
components to be realized as intended and needed.
    My office, the Office of the Coordinator for Reconstruction 
and Stabilization [SCRS], operates under the Reconstruction and 
Stabilization Management Act of 2008, which calls on the 
civilian elements of the Federal Government to work together to 
promote the security of the United States to improve 
coordination, planning, and implementation. The job of SCRS is 
to support the Secretary of State, leading the way on dealing 
with reconstruction and stabilization crises.
    The Civilian Stabilization Initiative is the critical first 
step to ensure that we have the right people with the right 
skills at the right time. However, making sure that these 
experts are doing the right things on the ground according to 
one strategic plan with full synchronization between civilians 
and military continues to be the most complex and challenging 
task for SCRS.
    But the benefits of undertaking this challenge are 
worthwhile, as demonstrated by SCRS's thus far still limited 
work in Afghanistan. Over 30 of our initial first responders 
and planners that make up our new expeditionary capability have 
served in Afghanistan in the last 2 years; and they have 
piloted a range of new platforms, plans, and integration 
efforts that will now set the stage for a successful civilian 
increase.
    Here are a few highlights of our work to date in 
Afghanistan: Our civilian responders pioneered the design and 
management of the Integrated Civilian-Military Action Group, 
the ICMAG, at Embassy Kabul which is at the forefront of 
civilian-military integration in Kabul, ensuring that the 
civilian and military are planning together and assessing and 
acting together at all levels of the mission.
    We have also developed a planning system now in use by all 
of the American PRTs in our new military and civilian elements 
across Afghanistan to ensure that civilian-military plans are 
put together and executed properly. Thanks to these efforts, 
there are now plans for similar operations at each American PRT 
and at Regional Command East.
    We have also developed pre-deployment training for civilian 
and military personnel deploying to Afghanistan so they can 
work as a team once they hit the ground in Afghanistan.
    We have initiated the first civilian teams at U.S. 
taskforces that will now be the platform for the upcoming 
civilian increase.
    We have developed a new integrated performance measurement 
system for sub-national levels, which is currently being 
piloted.
    And we have developed new ideas such as the model for 
district teams that would operate under provincial 
reconstruction teams.
    Under Ambassador Holbrooke's direction, we have put 
together and are leading the interagency Afghan Election 
Support Team to provide assistance to Embassy Kabul as it 
prepares for the upcoming Presidential and provincial council 
elections.
    Additional details on all of these items are in my prepared 
statement.
    With the funds that have been appropriated to date, we have 
hired and identified 338 members of the Civilian Response 
Corps; and we began last week to train those first members. By 
the summer, we should be in a position to deploy our first 
members to Afghanistan as part of the ramp-up. By the fall, we 
should be in a position to deploy dozens of CRC members to 
Afghanistan or other places.
    As Afghanistan so clearly demonstrates, failing states and 
ungoverned spaces can quickly spawn threats to the security of 
our Nation, its citizens, and our interests and those of our 
allies and partners.
    Building the U.S. planning and operations capacity embodied 
in the Civilian Stabilization Initiative and the Civilian 
Response Corps will ensure that we are prepared in the future 
for the challenges that are coming our way. In the end, this 
effort will depend on a strong, effective U.S. civilian 
response capacity. With this, we will ultimately spend less 
money and lose fewer lives in dealing with the challenge of 
failed and failing states.
    Thank you.
    [The prepared statement of Mr. Herbst follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Well, thank you. Thank all of you for your 
testimony. I think it has been a good platform for us to start 
some questions on that.
    I will begin the 5 minute questioning session, if I might.
    One general question for each of you: Have you all brought 
in the Special Inspector General for Afghanistan Reconstruction 
into the planning stages on this? Has his office been brought 
in along with any other inspector generals so they know in 
advance exactly what it is you are planning so they can set up 
their structure to better oversee this throughout?
    Mr. Bever, you addressed that a little bit in your remarks.
    Mr. Jones, if I start left to right, can you give us any 
information you have on that?
    Mr. Jones. Thank you, Mr. Chairman.
    Indeed, we meet frequently with General Field and his team, 
both in Washington and in the field; and I think he is 
completely aware of our civilian increase plans. I am 
personally not so familiar with how his team and ours have 
synched up on that, but his team is a growing presence in Kabul 
and in Afghanistan, and we are very supportive of that.
    Mr. Tierney. Good thank you.
    Mr. Sedney.
    Mr. Sedney. Mr. Chairman, as I said, we are in support on 
this, so we have had direct contact with the Inspector General 
on this issue.
    Mr. Tierney. Mr. Bever, you can reiterate what you said 
earlier, I suppose.
    Mr. Bever. In terms of our own Inspector General for USAID, 
the Deputy Inspector General of the agency sits on our Afghan-
Pakistan Task Force that meets every Friday morning at 10 a.m., 
sir. So he is there all the time, and we welcome his presence 
as our ``in-house physician,'' if you will.
    In Pakistan and Afghanistan, we look forward to our IG 
residing there as well, in presence. That is a good lesson 
learned from Iraq, sir, that concurrent audit are needed.
    As for the Special Inspector General for Afghanistan 
Reconstruction, we have met with General Fields and his staff 
three times here in Washington, had him meet our Acting 
Administrator, and our people in Kabul meet regularly with his 
staff.
    Mr. Tierney. Thank you.
    Mr. Michener.
    Mr. Michener. Mr. Chairman, our planning for the increase 
in USDA personnel in Afghanistan is just now getting under way, 
so we have not yet been in touch to coordinate with the Special 
Inspector General. But we will be.
    Mr. Tierney. You do intend to do that.
    Mr. Michener. We do intend to do that.
    Mr. Tierney. We appreciate that. Thank you.
    Mr. Ambassador.
    Mr. Herbst. We have been in touch with the Inspector 
General.
    Mr. Tierney. Ambassador, while I have you for a second, do 
you have any numbers where you anticipate on moving through 
your program and out into the field on an annual basis now that 
you have some resources finally allocated to you? I know you 
are just ramping up. Probably this year is when you first 
started going in the last couple of months. Do you have a plan 
of how many you expect to pass through the program and be 
available for deployment on a periodic basis?
    Mr. Herbst. Yes. We anticipate that by the fall we will 
have over 150--actually, 250 members of the Civilian Response 
Corps not just hired but trained and equipped and ready to go. 
By the end of the first quarter of next year, by March 31st, we 
would expect all 600 of the CRC that we were building with the 
money we received last fall to be ready for deployment.
    Beyond that, we received additional appropriations a couple 
of months ago. We would expect within by early or mid-2011 to 
have the 1,250 members that we are planning to put together 
with the money that has been appropriated thus far ready for 
deployment purposes.
    Mr. Tierney. To the extent that we may be fortunate enough 
to not have all the active people deployed at any given time, 
is there a plan for utilization of their services other than in 
the field to keep them active?
    Mr. Herbst. We anticipate they will train extensively even 
after they come back from missions. Part of what we have to do 
is not just find the right people with the right skills but to 
form them as teams depending upon circumstances. So creating 
those teams will be an important part of what we do even after 
folks deploy.
    But it is also true they may be available for what I call 
conflict prevention, stabilization work before a country gets 
out of hand. There are, as I think you know, anywhere from 30 
to 50 countries which are in the failed or failing state 
category. So, unfortunately, there is a great deal of work for 
people with these skills to do. So I expect they will be 
deployed quite regularly.
    But it is also true, in order to keep our costs down, we 
are keeping the numbers of active component relatively small 
compared to the others, so that when we are passed these large 
engagements we don't have lots of people sitting around.
    Mr. Tierney. To scale down. Thank you.
    Mr. Jones, can you give me a current estimation when it is 
you will fill all of the billets in the so-called surge? And 
when I say ``fill,'' I mean not with the Department of Defense 
people but with in-house USAID, State, Department of Justice or 
Ag people?
    Mr. Jones. Thank you, Mr. Chairman.
    Our team in Kabul identified a first tranche of 56 critical 
slots that they wanted filled in June and July. Some of those 
personnel are already arriving, particularly several from 
USAID. We have hired virtually all of them at this stage. There 
are a couple left that were still back and forth with our 
Embassy deciding on candidates, and they are all in training to 
go through training of various types, which is actually several 
weeks of training, the package that we give them. So we expect 
to have all 56 in place in that timeframe.
    The balance of the 420 will deploy in phases throughout the 
next months, with the final ones arriving no later than March 
is our plan. We feel confident we can fulfill that plan, 
because, as I said, we have no hesitation to turning to the 
other streams of hiring if we find some difficulties.
    Mr. Tierney. I have more questioning on that, but my time 
is up.
    Mr. Flake, you are recognized for 5 minutes.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Jones, is there a status of forces agreement in 
Afghanistan at the current time? That was a problem in Iraq. 
Contractors didn't know if they were immune to charges or 
whatever else. What do we have to ensure that we won't have 
those problems in Afghanistan?
    Mr. Jones. I am sorry. Your question is the question of 
contractors?
    Mr. Flake. Is there a status of forces agreement in place 
in Afghanistan at the current time that clarifies the role of 
civilian personnel, contractors?
    Mr. Jones. Civilian personnel. I would have to take that 
question.
    I don't know, David, if you know the answer to that. I have 
some general ideas, but I don't want to speak out of turn.
    Mr. Flake. Anybody? Mr. Sedney.
    Mr. Sedney. We do have an outstanding status of forces 
agreement that we signed with the Afghans. I will have to get 
back to you on the date. I think it was 2003.
    Mr. Flake. If you could speak up just a little?
    Mr. Sedney. We do have an outstanding status of forces 
agreement that we signed--which we agreed to with an exchange 
of diplomatic notes in 2004, I believe. But the status of 
civilians under that status of forces agreement I am not clear 
on, and we would have to get back to you.
    Mr. Flake. If you could do that, that would be of interest.
    Mr. Sedney. I certainly will.
    Mr. Flake. Mr. Jones, what type of deployment are we 
talking about here? How long will these civilians be in 
theater?
    Mr. Jones. The civilians that we are assigning, we took a 
policy decision that we are looking for the civilians to stay a 
minimum of 1 year. Some seek to extend, and that would be fine. 
But each one will be deployed for 1 year.
    We actually call this a civilian increase because we don't 
have a plan to decrease. So that is why we avoid the term 
``surge,'' because it gives the impression this is just for a 
few months. Actually, we plan to continue this deployment and 
fill those slots after 1 year.
    Mr. Flake. I am still a little unclear. Mr. Sedney, maybe 
you can clear it up in terms of where all of these civilians 
are going to come from. I know some are currently full time at 
USAID, will they simply be reassigned. Others, are we talking 
about contractors that will be hired in country that will make 
up some of this force?
    Mr. Jones. Actually--thank you, Congressman Flake. Let me 
clarify that.
    We have special hiring authorities at the Department of 
State and at USAID to hire U.S. direct-hire employees on a 
temporary basis. So we will use a mix of, in the case of U.S. 
Department of State, regular U.S. Foreign Service Officers plus 
individuals that have particular skills we are hiring 
temporarily. And we are advertising that on USA Jobs and hire 
them under what is called 3161 authority.
    Mr. Flake. Mr. Michener, obviously, we see the need with 
regard to shifting economies. In Helmand Province where a lot 
of the work is going to be done, obviously, that is where a lot 
of the poppy production has moved to. What percentage of this 
500 do you expect to be deployed in agriculture or as 
agriculture experts? I know you probably want more than you are 
going to get, but what do we expect? And from the others as 
well, the composition of this. How many are going to be legal 
affairs or democracy building, agriculture? Give me some sense, 
if you could, of how this breakdown is going to be.
    Mr. Michener. I can speak to USDA's portion of agricultural 
experts, which is roughly 10 percent of the number right now. 
But at the 421 number being floated, it is my understanding 
that is a living document that is being revisited. That number 
could increase, depending on need.
    I also want to stress USDA is not the sole source of 
agricultural expertise. There would be USAID agricultural 
experts as well.
    Mr. Flake. That is surprising. That is a little smaller 
than I thought it would be in terms of the agricultural 
experts.
    Mr. Bever, do you want to comment?
    Mr. Bever. I just want to add we are entering into a 
partnership with the U.S. Department of Agriculture to make 
sure that both the public sector government functions of the 
agricultural sector are adequately covered along with the 
private sector business end of the equation and the 
infrastructure requirements as well.
    We already have some agricultural officers in country. We 
will be adding at least another 16 or more specifically 
agricultural officers out of the 150. We also have breakouts 
for the numbers of engineers and the numbers of governance 
officers to work at local government levels and private sector 
officers, as well as what we call general development officers, 
who also can cover agriculture because they have had some 
background in that area.
    As the situation evolves, we will bring even more on board 
if we find that is what is particularly required. We will 
concentrate in the south and east in this regard.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Tierney. Mr. Foster, you are recognized for 5 minutes.
    Mr. Foster. Thank you.
    Could any of you say something about the age distribution 
of the civilians being deployed for this effort? Is that easy 
to characterize one way or another? Are these a bunch of starry 
eyed kids coming out of college? Are they a bunch of retired 
people? Is there any easy way to characterize that?
    Mr. Tierney. Where would you put yourself in that crowd?
    Mr. Foster. I don't know. I have retired from two careers 
so far.
    Mr. Jones. Thank you, Congressman.
    If I could just begin with that, I have personally reviewed 
all of the resumes of those we are hiring in this first 
tranche, and I didn't really focus on age. But the experience 
was quite remarkable. I think in fact in this first tranche 
virtually all of the candidates, at least that are being hired 
by the State Department through this temporary hiring authority 
or Foreign Service Officers, were already well-known to our 
Embassy colleagues in Kabul because they had been in 
Afghanistan before in some capacity.
    A couple of--and really a range of different backgrounds 
and experience, from former military, some former academics who 
had clearly done research in Afghanistan before--and then 
people who had been deployed in Iraq and Afghanistan. So I 
doubt any were young, and certainly all were very experienced.
    Mr. Foster. How does the size and scope of this effort 
compare to what NGO's might be attempting in the area? Are 
NGO's viewed as a force multiplier or an annoyance by the 
people that are having to deal with them? And are we doing 
everything we can to make maximum use of them?
    Mr. Bever. Sir, I can just respond to that, and I can also 
follow on Mr. Jones' comments about the caliber of people we 
are bringing on board.
    They are very carefully scrutinized. We have a very careful 
selection process by teams of people at USAID headquarters and 
the mission who look at who these people are and check their 
references.
    They are generally quite seasoned people. Even if they are 
retired, they might still be a little starry eyed, but they are 
not wet behind the ears. Most of them are what we would call 
battle-hardened, meaning they have worked in civil strife 
settings or country development settings in their own 
profession.
    In terms of NGO's, we see a great opportunity to increase 
and deepen and expand our involvement with nongovernmental 
organizations. There is a caution there. In both Afghanistan 
and Pakistan, there is a caution in hitting the right balance. 
Because both of the host governments are concerned about how 
much attention we strengthen the government functions at all 
levels as well as the nongovernment functions. So getting that 
balance right is going to be a matter of dialog.
    But the NGO's, Pakistan, and Afghanistan NGO's are 
certainly very active already and certainly willing to step up 
to the plate. We have to check to make sure they are 
accountable and that they use the money which is given as gifts 
to them of our people's money in the way they are intended to 
be used.
    But with that, they have the access on the ground that is 
needed and the insight, so we will use them even more.
    Mr. Foster. Do you share any of your support or training 
with the NGO personnel?
    Mr. Bever. When a grantee asks for it or we think it is 
appropriate, we will provide them certain kinds of training, 
particularly if they are here on the U.S. side and haven't had 
experience inside Afghanistan or Pakistan.
    But in terms of inside the country for local NGO groups, we 
often will have our controllers or contract officers or 
technical people as part of the grant strengthen their ability 
to function effectively. So not only do they help us get the 
work done, but they are stronger as a result of it a few years 
later.
    Mr. Foster. Are there Blackwater-type private security 
contractors used anywhere in this effort?
    Mr. Jones. There are private security companies in 
Afghanistan, and it is a subject of considerable scrutiny both 
from our government and the government of Afghanistan. We would 
love to not have to rely on private security companies, but we 
really don't have that option in some of the areas where we 
have to work.
    What we are looking to do, as I indicated in consultation 
with General Petraeus, is to work as closely as we can with our 
military to secure the civilians or the areas in which the 
civilians are working in order to minimize any reliance we have 
to have on private security contracts.
    Mr. Foster. Do you have any feeling for the percentage of 
the military support that you get that comes from private 
contractors versus actual armed services personnel?
    Mr. Jones. For the percentage, I am sorry----
    Mr. Foster. You said in some areas there was not an 
alternative. But what is the overall effort? Is it 50 percent 
supported by private contractors? Or 10 percent? Do you have 
any idea----
    Mr. Jones. I am not sure I can put a percentage down. It is 
very small in the field. For a couple of very specific projects 
we hire private security because our military forces are not in 
that region where we have to have people. But it is minimal in 
the field.
    In Kabul, where our military is not deployed in the same 
manner, we have more reliance on private security contracts. 
But, as I say, our goal is to minimize that.
    Mr. Foster. And then for actual construction projects, are 
there private contractors involved in that?
    Mr. Jones. For construction of----
    Mr. Foster. When you are, I don't know, actually building 
something specific, is that typically done through a private 
contractor, or how is that sort of stuff handled?
    Mr. Bever. On the construction work and buildings and so 
on, both State and USAID use private construction companies, 
both United States and local, and third countries, sometimes, 
as subcontractors when there is international competitive 
bidding.
    In the case of security subcontractors for the assistance 
program, some of our U.S. firms and their subcontractors and, 
in certain cases, even our NGO's, USPVO's have in the past or 
currently do use some security people in order to keep them 
safe, both statically and when they are on the move.
    This is particularly important in the infrastructure area, 
which is where we've had the most of our casualties, 
particularly in Afghanistan, but even in Pakistan with CHF and 
the murder of Stephen Vance and his driver. Some of our 
entities in Pakistan that work under the assistance program are 
beginning to meet with our Diplomatic Security colleagues and 
us to figure out what kind of potential protection they might 
need as situations warrant.
    Thank you.
    Mr. Foster. Thank you.
    I yield back.
    Mr. Tierney. Thank you.
    With unanimous consent, we would like to offer Mr. Quigley 
the opportunity to ask some questions. He is looking to be on 
the committee; the House just hasn't acted yet.
    Sir, you are recognized for 5 minutes.
    Mr. Quigley. Thank you. Thank you, Mr. Chairman and members 
of the panel.
    Specifically, as it relates to the security of the 
civilians--and you have started to touch on this--but with an 
increase in civilians, there is an increase in risk and 
exposure. What is the general plan as you enter this next phase 
for protecting these civilians, as, you might say, a whole new 
ball game here? And how does it change our plans with private 
security?
    Mr. Jones. The civilians in the field, deployed in the 
field, will be deploying out of--they will be based on military 
platforms either in the Provincial Reconstruction Teams or the 
district support teams.
    What we have discussed--and there has been great 
receptivity from our CENTCOM and our U.S. forces components--is 
prioritizing civilian-led missions. That is, where the 
civilians--at each of these military platforms, there will be 
one designated senior civilian who will integrate directly with 
the commander and propose, prioritize missions that they need 
to do to get their job done, to get out and meet with local 
officials and travel in the region.
    And there is great receptivity for our military 
counterparts in prioritize in providing security. So that is 
our priority, to take that approach, to rely on the cooperation 
of our U.S. military and not to be hiring private security.
    Mr. Quigley. So these additional civilians will be in 
military platforms, and you don't imagine having to hire 
additional private security at all?
    Mr. Jones. That is our intention, that is right. Now, as 
for the civilians, there is also a civilian increase at our 
Embassy in Kabul, which will obviously be provided security by 
our Diplomatic Security and our own security personnel.
    Mr. Quigley. I yield back.
    Mr. Tierney. Did you want to add something to that?
    Mr. Sedney. If I could add, on the issue of security 
contractors, the Department of Defense does employ security 
contractors for some functions in Afghanistan, as it does in 
Iraq. Currently, according to the first quarter 2009 census, 
the Department of Defense has 3,651 host-country nationals. In 
other words, these are Afghans who DOD or DOD contractors or 
DOD subcontractors hire to provide security for various 
contracts that the Department of Defense carries out.
    There are also 23 third-country nationals and 15 U.S. 
coalition nationals who are employed by the Department of 
Defense as security contractors in Afghanistan.
    Mr. Tierney. Well, we probably don't have to go into great 
detail about the testimony that we have had on this 
subcommittee and the full committee about some pretty 
questionable activity and conduct of some of our paid private 
contractors, particularly in the security area. There were a 
number of hearings and, I think, a number of reports done. We 
have to really make a determination of what is inherently 
governmental and what isn't.
    So are there any plans that either Mr. Sedney or Mr. Jones 
are aware of to increase the amount of security in the State 
Department, their own security personnel--there is a division 
that you have for that--or Marines or other military personnel 
so that, at some point in the not-too-distant future, we will 
have all of those inherently governmental security aspects done 
by people on the U.S. payroll? Or is there nothing happening in 
that area?
    Mr. Jones. Thank you, Mr. Chairman.
    A significant portion of the increase from the State 
Department side in Kabul is actually an increase in security 
personnel. I don't have the number right in front of me, but 
that is a significant focus, in order to help our people get 
out without reliance on other security.
    Mr. Tierney. In-house security people?
    Mr. Jones. Yes, in-house security.
    Mr. Tierney. OK.
    Mr. Sedney.
    Mr. Sedney. At the current time, I am not aware of any 
plans to add additional security contractors for the purpose of 
enabling the civilians out into the field.
    Mr. Tierney. I guess my question was not hiring more 
civilian contractors, but hiring fewer of them. We have people 
stationed all over the world here; we have a thousand military 
bases around the world. It seems striking to me that we can't 
have enough trained Marines and military people to take over 
that responsibility so that we are dealing with the Afghan 
population on our terms.
    As General Petraeus has said, you know, it makes a lot more 
sense to have the sensitivity of our personnel in there doing 
it, as opposed to a hired gun whose job is just to get people 
from A to B and, they are not overly concerned about how they 
did it.
    Mr. Sedney. I am familiar that there has been a long series 
of exchanges about this. The point I would make about the 
numbers that I mentioned is these are Afghan nationals who are 
security contractors for those who are providing primarily for 
contractors, subcontractors, and sub-subcontractors of the 
Department of Defense.
    So they are not involved in the security surge, and I don't 
know of any plans for the security surge to have an increase in 
those amounts. But I will go back and check, taking 
acknowledgement of your concern, sir.
    Mr. Tierney. Thank you.
    Mr. Jones, are you the person that is in charge of this 
thing writ large? I mean, are you the one that is going to know 
how many United States and allied civilians are out there, how 
they are coordinating their activity, who is doing what, how 
many people are stationed with PRTs or other provincial 
district places, monitoring the progress of this, monitoring 
how Ambassador Herbst is doing, putting people through the 
pipeline, whether you are going to meet the goals and the 
numbers that you need or look elsewhere? Is that your job?
    Mr. Jones. Well, let me--with a lot of help, say yes. But 
if I could just describe a little bit about the structure.
    Our Deputy Secretary of State, Jack Lew, is personally 
engaged on this issue and has told us that any bottlenecks, any 
trouble that we have in filling these positions go directly to 
him for his adjudication, to make sure that they are opened up. 
And he is in direct contact frequently with Under Secretary 
Michele Flournoy and other senior members of the 
administration. So we have that element.
    Another element that is very important is at our Embassy in 
Kabul, we have, as I mentioned, four Ambassadors. One 
Ambassador, Tony Wayne, will be arriving shortly. He is 
responsible for ensuring all of our interagency assistance is 
coordinated, especially out in the field.
    And then Ambassador Joe Mussomeli is responsible for 
ensuring our interagency management is coordinated and making 
sure that the flow of these people is coherent and demand-
driven out to the field and that they are supplied, as well.
    Mr. Tierney. So it is Mr. Lew, then you, and then those 
four fellows that you were just talking about.
    Mr. Jones. We have a whole team, actually, sir. There are a 
lot more of us.
    Mr. Tierney. Well, no, but I am just saying, basically, 
this committee will want to know who to come back to. We don't 
want to drag everybody back in if we don't have to, but we want 
to go right to the source of people who know the answers on 
this and be responsible for it. So I am looking at the right 
office right here?
    Mr. Jones. Yes, sir.
    Mr. Tierney. Thank you on that.
    Mr. Bever, one of the questions we keep having in some of 
the more delicate areas of Pakistan and Afghanistan, as well, 
is we put more resources in, sizable amounts of money for 
redevelopment and construction. On that basis, how are we going 
to be accountable for that money? In a lot of those areas, we 
can't really safely send in some of our civilians to do that 
kind of accountability work, to assess how the progress is 
going and whether the work is actually being completed or not. 
What are your plans in some of those areas?
    Mr. Bever. Thank you, Mr. Chairman. That is an excellent 
question, and it is a continuing challenge for us--I want to be 
straight with you on this--especially in those highly dangerous 
areas.
    As we increase the number of our direct-hire officers and 
as we get the assistance we need from either our Diplomatic 
Security RSO, regional security officer, at post, and/or from 
the U.S. military in the case of Afghanistan, also to be able 
to get our people out, we will have more of our officers out 
there to sort of kick the tires and make sure things are going 
right.
    But we also have, in both places, independent monitors. We 
hire other firms and other groups to keep eyes and ears and 
brains----
    Mr. Tierney. So, contractors?
    Mr. Bever. Either contractors or sometimes their 
cooperative agreement grantee partners, who have the ability to 
move around the area without attracting attention.
    Mr. Tierney. And how do you assess their reliability and 
their honesty in that situation?
    Mr. Bever. Pretty high. Not completely, 100 percent 
foolproof. Sometimes they miss things, either because of the 
timing of when they have done a visit on a construction project 
or something or other phenomena like that in very hard-to-reach 
places.
    We also use our foreign service nationals, which are an 
extremely valuable asset to our American people in these 
countries.
    Mr. Tierney. But even there--I mean, I really respect the 
difficulty you are having here. We were in Pakistan, and even 
some of the foreign nationals have a difficult time getting up 
into the areas that we are doing this work.
    Mr. Bever. Right. Right.
    Mr. Tierney. So is there a backup plan on that?
    Mr. Bever. Well, we also invite concurrent audit by our 
inspector general, who then in turn hires local auditing firms, 
who in turn use Pashtuns, for example, to get up into the 
areas. But in the case of FATA, Northwest Frontier, you have to 
be from those areas to be credible and to be able to get around 
safely.
    So it is a challenge. We keep working at it. In the case of 
Afghanistan, we have certain other means which we also like to 
employ. For example, when U.S. military travels around, we 
sometimes ask them to give us feedback, especially if it is in 
a combat area, to give us feedback on how things are going. We 
don't have those capabilities, of course, in Pakistan.
    But we are very mindful of this, sir. And we are looking 
for technological assets which could help us, as well.
    Mr. Tierney. Thank you.
    Mr. Flake, do you have any additional questions?
    Mr. Flake. Just a few.
    Ambassador Herbst, the PRTs, many of them are obviously run 
by our NATO allies. They have different rules of engagement, 
mission limitations. How are we going to--and I know, from 
previous testimony and from visits that many of us have taken 
in the area, there isn't very good coordination. There is a 
striking lack of coordination, it seems.
    How is that going to change? What will this do, having a 
lot more civilians there, what will it do to change the dynamic 
that we have seen, where it is difficult to mesh our efforts 
with theirs?
    And would you agree with that assessment, by the way?
    Mr. Herbst. I am not sure that I am the right person to 
answer your question, because, while we are doing things in the 
field in Afghanistan, and we believe coordination is very 
important, and we have also had some contact, a little bit of 
contact, with other PRTs, we don't have any formal 
responsibility for it. I don't know if one of our other 
panelists would want to take a crack at that question.
    Mr. Flake. Would someone else on the panel like to answer 
that? Mr. Jones.
    Mr. Jones. Thank you, Congressman Flake.
    Obviously, coordination is a major challenge, and 
particularly when we are dealing with multiple countries in 
multiple different, sort of, structures and models of field 
presence, Provincial Reconstruction Teams.
    Two things. Let me--one, we have begun in Kabul fairly 
recently, over the last several weeks, an interaction hosted by 
the United Nations to coordinate better the civilian 
deployments outside of Kabul, and particularly focused, as a 
point of entry, the Afghan Government's request for 650 
technical advisors from the international and Afghan community. 
That was a good entry point for us to open up that discussion 
and have it take place much more frankly. And with our 
increased capacity in Kabul, we think we will be better able to 
coordinate those discussions there.
    I also want to point out, in the very important area in RC 
South, the coordination actually has been better than elsewhere 
in the country and has been planned and coordinated from the 
beginning. And that is where a lot of our new forces will be 
flowing into. We are very actively engaged with the Canadians, 
for example--the Canadians have coordination conferences here 
that we attend--in order to make sure that we are linked up. 
What we want to move to is areas where we actually train 
together in greater quantities than we do now.
    But there are--you know, you identify an important issue. 
We are at work on it. It is getting a little better, and it is 
particularly more effective in the south, where we are very 
focused.
    Mr. Flake. OK, thanks.
    One additional question. Mr. Sedney, is there any type of--
I know it is different depending on which province you are in 
or the area, but how much more of a burden is this going to 
place on our military there?
    I know with PRTs and depending on the area they are in, it 
requires a lot, in terms of escorts, in terms of simply being 
able to carry out their activities, to have the type of 
military backup that is often required.
    Is there any kind of formula that we have that each new 
civilian will require this much? Should we worry about that? 
And is the increase in our military presence going to account 
for that?
    First, is there any kind of formula that we know of?
    Mr. Sedney. Congressman Flake, I don't know of any formula, 
but I will check and make sure, because I don't know 
everything.
    Mr. Flake. I know it will be rough.
    Mr. Sedney. But my understanding is that the planning for 
the integration of civilians into the military effort is done 
based on the situation in the area. So it is different whether 
it is in a less or more permissive environment. And in 
Afghanistan, from, say, the Panjshir province in the north down 
to the provinces in the south, situations are very different.
    In terms of will it put additional stress on the force, 
yes, it will, but it is a stress that we welcome, because in 
order to carry out the effective counterinsurgency effort, we 
know we need this joint civil-military effort.
    We have right now ongoing, as a result of the President's 
new strategy, a combined civil-military planning effort going 
on out in Kabul between Ambassador Eikenberry and General 
McKiernan. It is a very intense look at how we integrate the 
civilians and the military and to do that effectively.
    And I would add, along with what my colleague Mr. Bever 
said, this is going to be a dynamic process where we are going 
to continue to be evaluating that. Once the field has developed 
the integrated civil-military plan, I think we will be in a 
better position to answer your questions about the factors that 
go into the decisions to deploy civilians in particular areas.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you, Mr. Flake.
    Let me leave you with one question for homework, if I 
might. I think probably we don't want to bring you back after 
votes, so we don't want to make you come back on that. But I 
think it is something that will be helpful to this committee.
    President Karzai has recently complained about the current 
model of the Provincial Reconstruction Teams. He basically 
thinks that they are inadvertently forming parallel provincial 
governments, and he has great concern about bleeding off of the 
impact of the central government.
    The former State Department counternarcotics advisor, 
Ambassador Tom Schweich, has also echoed those sentiments. He 
called on the United States to replace the PRT model with a 
model focused on decentralized developmental councils.
    Now, my question would be, how could we reform the PRT 
model--or should we reform it? If we should, how should we, to 
make each team more responsive to the central government but, 
at the same time, making them responsive, as they should be, to 
the local government, and doing all of that without risking any 
corruption in the PRT system?
    So I will leave that to each of you gentlemen, if you will 
think on that. We can supply it to you in writing, as well, on 
that and ask that you get back to us on that to see if we are 
planning to do anything. It could be the simple answer, you 
think everything is fine the way it is. Or you could put some 
merit to those objectives that are being raised and how we 
ought to address those.
    I want to thank all of you for your valuable testimony here 
today. It really is helpful to us in our oversight 
responsibilities. We will be working with the inspectors 
general and your offices in the future on this. Obviously, 
everybody wants this to be a successful effort, and we wish you 
well in your jobs and your responsibilities.
    And, again, the three gentlemen that were working with 
USAID that we were introduced to earlier, again, we want to 
thank you for your service and hope you take it back to your 
colleagues in the field how much their work is respected and 
appreciated.
    Thank you. Meeting adjourned.
    [Whereupon, at 11:19 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
